Audit Report, GR-90-02-003



Return
    to the USDOJ/OIG Home Page



Compliance with Standards Governing
Combined DNA Index System Activities Orange County Sheriff-Coroner Forensic Science Services

Orange County, California
GR-90-02-003

October, 2001

Office of the Inspector General

EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards 
governing Combined DNA Index System (CODIS) activities at the Orange County Sheriff-Coroner Forensic Science 
Services (Laboratory).  CODIS is a national computerized information repository maintained by the FBI that 
permits the storing, maintaining, tracking, and searching of DNA specimen information in order to facilitate 
the exchange of DNA information by law enforcement agencies.  Laboratories that participate in CODIS perform 
DNA analysis on specimens from convicted offenders or crime-scene evidence.  These laboratories use special 
software, provided free of charge by the FBI, to organize and manage the DNA profiles and related information.  
The software also compares DNA profiles from participating laboratories and notifies the appropriate laboratories 
when two or more DNA profiles match.


The DNA Identification Act of 1994 authorized CODIS and specified several standards for laboratories that 
contribute profiles to the FBI National DNA Index System (NDIS).  Each participating laboratory must certify 
that it is performing DNA analysis in compliance with the FBI standards governing laboratory operations.  
Further, a Memorandum of Understanding (MOU) was enacted between the FBI and state laboratories establishing 
the responsibilities of each party as part of CODIS.  The MOU establishes general and specific standards that 
are to be followed by a laboratory in order to participate in CODIS and utilize NDIS, including the upload of 
DNA profiles to NDIS.


Our audit generally covered the period from May 1999 through May 2001.  The overall objective of the audit was 
to determine the extent of the Laboratorys compliance with standards governing CODIS activities.  To address 
the overall objective, we considered:


the extent to which the Laboratory complied with the FBI NDIS participation requirements,

the extent to which the Laboratory complied with federally legislated Quality Assurance Standards (QAS) 
for laboratories, and



the appropriateness of the Laboratorys DNA profiles contained in CODIS databases.



We found that the Laboratory complied with standards governing CODIS activities that we tested with the 
following exceptions:


With respect to the QAS for laboratories, we noted that the Laboratory did not follow their internal 
equipment calibration policy. Our review indicated that a thermalcycler was calibrated on a bi-monthly basis 
rather than once a month as required by the Laboratorys own policies.  We further noted that three DNA analysts 
did not undergo external proficiency testing within the interval required by the QAS. 
With respect to the Laboratorys DNA profiles contained in CODIS databases, we noted that, of the 50 
profiles reviewed, the Laboratory uploaded 2 DNA profiles to NDIS that it should not have, uploaded 1 profile 
that was incomplete, and uploaded 1 profile that did not accurately reflect the results of analysis.  The NDIS 
requirements prohibit laboratories from uploading DNA profiles that are unambiguously attributable to a victim 
or to known individuals other than the suspected perpetrators.  We found that one record matched the DNA profile 
of a crime victim and the second record matched the DNA profile of the victims common law husband (not a suspect).  
Given the sensitivity surrounding the collection and usage of DNA, we consider every instance involving the 
uploading of inappropriate profiles to be significant.



Officials stated that they have recently initiated a proficiency test tracking system that will monitor each 
analysts examination scheduling status.  Based on this information, analysts will be notified by Laboratory 
management when they must begin their next proficiency examination.  In addition, Laboratory management stated 
that they intend to review all case profiles currently entered into the database to determine their 
appropriateness and will delete all profile entries determined to be inappropriate.


The audit results are discussed in greater detail in the Findings and Recommendations section of the report.  
Appendix I discusses our audit scope and methodology.  Appendix II provides the audit criteria.  Appendix III 
contains general background information.  Appendix IV covers the history and status of DNA testing and CODIS use 
at the Laboratory.